                                   Report Template Version = 09-08-04




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    STATE STANDARDS AND 

      CAPACITY TO TRACK 

  FREQUENCY OF CASEWORKER 

   VISITS WITH CHILDREN IN 

         FOSTER CARE





                    Daniel R. Levinson

                    Inspector General 


                      December 2005

                     OEI-04-03-00350

                                                                 Report Template Version = 09-08-04




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control Units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                                    Report Template Version = 09-08-04




  Δ         E X E C U T I V E                             S U M M A R Y                                 




                    OBJECTIVES
                    To determine (1) the written standards States have implemented for
                    frequency of caseworker visits with children in foster care, (2) the extent
                    to which States could provide statewide automated reports reflecting
                    the frequency of caseworker visits, and (3) the extent to which statewide
                    reports indicate that children were visited.


                    BACKGROUND
                    A critical element in maintaining the safety and well-being of children
                    in foster care is face-to-face contact (visits) between caseworkers and
                    children. There is no Federal requirement regarding how often children
                    in foster care are visited by caseworkers. However, the Administration
                    for Children and Families (ACF) reviews caseworker visits as part of its
                    Child and Family Service Reviews (CFSR). ACF reviewed all 50 States,
                    the District of Columbia, and Puerto Rico between 2001 and 2004.
                    During CFSRs, ACF determines whether the frequency of caseworker
                    visits was sufficient to meet the child’s needs for approximately 50 child
                    welfare cases (a combination of foster care cases and those receiving in-
                    home services) in each State. ACF uses monthly visits as a minimum
                    benchmark when assessing the frequency of visits; however, in some
                    instances, more frequent visits may be necessary to meet a child’s
                    needs. If visits are less than monthly, States must present substantial
                    documentation that the child’s needs were being met to receive a
                    positive assessment for caseworker visits. On a national level, ACF
                    summarized the CFSR results of the 35 States completed in 2002
                    through 2004. Twenty-seven of the States were cited as needing
                    improvement in the area of frequency of caseworker visits.

                    The difference between the CFSRs and this evaluation is that CFSRs
                    include a detailed review of approximately 50 child welfare cases (a
                    combination of foster care cases and those receiving in-home services),
                    whereas our evaluation included analysis of State frequency standards
                    for children in foster care. In contrast to the CFSRs, OIG’s evaluation
                    focused exclusively on children in foster care and did not examine
                    standards for children receiving in-home services. In addition to
                    examining statewide frequency standards, this evaluation also analyzed
                    State capacity to produce statewide reports and, when available, FY
                    2003 statewide reports indicating the frequency of caseworker visits for
                    at least 70 percent of States’ foster care caseloads. The information in
OEI-04-03-00350     S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN
                    FOSTER CARE                                                                                                          i
                                                                                                   Report Template Version = 09-08-04




                   this report should enhance ACF’s oversight of State foster care
                   programs related to the frequency of caseworker visitation.

                   Many States have implemented, or are in the process of implementing,
                   automated systems that may include the capacity to capture data about
                   caseworker visits and produce automated reports detailing the
                   frequency of visits with children in foster care. Most commonly, States
                   have implemented a Statewide Automated Child Welfare Information
                   System (SACWIS). Approximately $2.8 billion in Federal and State
                   funds have been spent on the design, development, implementation, and
                   operation (including initial and replacement hardware) of SACWIS
                   since 1994. There is no Federal requirement that States produce
                   statewide reports detailing how often children in foster care are visited.

                   Our primary data source for this evaluation was a document review to
                   determine standards for caseworker visits for all 50 States and the
                   District of Columbia (referred to as 51 States throughout this report).
                   In addition, the 51 States completed an e-mail data collection
                   instrument and participated in structured telephone interviews between
                   February and July 2004. Since ACF uses monthly visits as a
                   benchmark during its reviews of State child welfare systems, we asked
                   States to submit monthly statewide caseworker visitation reports for
                   Fiscal Year 2003 (FY 2003). Our request allowed us to test States’
                   ability to produce reports as well as to determine how often reports
                   indicated that children were visited in FY 2003.

                   This report is the first in a series of three reports about caseworker
                   visits with children in foster care. In the second report, “State
                   Standards and Practices for Content of Caseworker Visits With
                   Children in Foster Care,” OEI-04-03-00351, OIG analyzed State written
                   standards for the content of caseworker visits. The third report in the
                   series, “Compendium of State Standards: Content of Caseworker Visits
                   With Children in Foster Care,” OEI-04-03-00353, provides State written
                   standards guiding the content of caseworker visits with children in
                   foster care. The compendium includes standards provided by 38 States.


                   FINDINGS
                   Forty-three States had statewide written standards calling for
                   caseworkers to visit children in foster care at least monthly. Fifty of
                   fifty-one States had statewide minimum standards regarding the
                   frequency of caseworker visits with the majority of children in foster care


OEI-04-03-00350	   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN
                   FOSTER CARE                                                                                                          ii
                                                                                                  Report Template Version = 09-08-04




    E X E C U T I V E                 S U           M M A R Y


                  placed in-State. Forty-three of fifty had standards for at least monthly
                  visits. States reported that the CFSRs, lawsuits or consent decrees, and
                  collaboration with child advocacy groups were the most common events
                  that contributed to the development or enhancement of their standards.
                  In addition, 33 out of 50 States had standards stating that at least some
                  caseworker visits should take place specifically in the foster care
                  placement. Many of these States reported about the benefits of visits in
                  the placement, including the value of assessing child safety and well
                  being in the home environment.
                  Twenty States demonstrated their ability to produce statewide
                  reports detailing the extent to which visits occurred during FY 2003.
                  Nineteen of these twenty reports were produced using SACWIS. The
                  remaining statewide report was produced from the results of a State
                  administrative review process. We identified several impediments to
                  report production for the 31 States that did not provide statewide
                  automated caseworker reports. These impediments were: documentation
                  in paper case files, insufficient automated system capacity, or lack of
                  resources (e.g., insufficient staffing or computer time to produce the
                  reports).
                  Seven of the twenty statewide reports indicated on average that
                  fewer than half of children in foster care were visited monthly in
                  FY 2003. Seventeen of the States that provided reports had at least
                  monthly visitation standards, while the remaining three States had
                  standards for less frequent visitation. Among the 17 States with
                  standards providing for at least monthly visits, 5 State reports indicated
                  on average that fewer than half of children were visited monthly.

                  The three States with standards less frequent than monthly provided a
                  range of monthly and quarterly data for FY 2003. One State provided
                  monthly data only, another provided both monthly and quarterly data,
                  and the third provided quarterly data only. The two State reports with
                  monthly data indicated on average that fewer than half of children in
                  foster care were visited monthly. However, the State report providing
                  both monthly and quarterly information indicated on average that
                  88 percent of children were visited by the end of the quarter. In contrast,
                  the State report with only quarterly data indicated that 58 percent were
                  visited during the quarter.

                  All 20 States reported factors that affected the visitation rates found in
                  the reports. Many States reported negative factors that may have
                  resulted in low visitation rates in their reports. These factors include
OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN
                  FOSTER CARE                                                                                                          iii
                                                                                                  Report Template Version = 09-08-04




    E X E C U T I V E                 S U           M M A R Y


                  insufficient documentation of caseworker visits, high caseloads and
                  insufficient staff to conduct visits, and other factors such as private
                  provider visitation information not being included in the reports. The
                  range and severity of some of these factors reported by States clearly
                  can result in reports that do not reflect all visits that occurred. In
                  addition to these negative factors, States also cited positive areas
                  affecting caseworker visitation, including that caseworker visits were a
                  priority in the State or that it was an area that was closely monitored.
                  Finally, five States reported that they either improved their visitation
                  rates by the end of 2003 or that they were able to significantly improve
                  their rates after that timeframe.


                  RECOMMENDATIONS
                  For States with limited or nonexistent automated capacity to record
                  the frequency of caseworker visits and produce statewide reports,
                  ACF should promote the development of automated systems such
                  as SACWIS. We recognize that child welfare programs are complex and
                  that States face challenges related to competing priorities, resource
                  issues, and the implementation of automated systems. However, in our
                  evaluation, 19 States demonstrated their ability to quantify caseworker
                  visits through SACWIS even though there are no requirements to have
                  systems structured to produce these reports. To the extent that ACF
                  wants to strengthen States’ abilities to quantify how often caseworkers
                  visit children, we recommend the agency work with States to ensure that
                  systems are structured to both record visits and produce reports. These
                  reports could be particularly useful for States cited in the CFSRs as
                  needing improvement in the area of frequency of caseworker visits. The
                  reports would also enhance ACF’s ability to monitor caseworker visits,
                  providing statewide, comprehensive visitation data in addition to the
                  information gathered during the CFSRs.
                  For States with automated system capacity to record the frequency
                  of caseworker visits and produce statewide reports, ACF should
                  work with States to ensure that visitation data are recorded in
                  automated systems. ACF should continue to assist States to develop
                  clear policies for recording caseworker visits in automated systems to
                  promote the accuracy of reports. Improved visitation data would allow
                  both ACF and the States to monitor visitation frequency with enhanced
                  accuracy, and thereby plan program improvements more effectively.



OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN
                  FOSTER CARE                                                                                                          iv
                                                                                      Report Template Version = 09-08-04




Δ   T A B L E            O F             C O N T E N T S                                   




         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         INTRODUCTION ................................................ 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                     State Standards for Visits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                     States’ Ability to Produce Statewide Reports . . . . . . . . . . . . . . . . 12 


                     Visits During FY 2003 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

                     Appendix A: State Standards for Frequency of Visitation . . . . . . 23 


                     Appendix B: State Standards for Visits Occurring in the
                     Foster Care Placement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 


                     Appendix C: Percentage of Children Visited . . . . . . . . . . . . . . . . 27 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

                                                                                                    Report Template Version = 09-08-04




  Δ         I N T R O D U C T I O N                                            



                    OBJECTIVES
                    To determine (1) the written standards States have implemented for
                    frequency of caseworker visits with children in foster care, (2) the extent
                    to which States could provide statewide reports reflecting the frequency
                    of caseworker visits, and (3) the extent to which statewide reports
                    indicate that children were visited.


                    BACKGROUND
                    Caseworker visits are a critical element in ensuring the safety and well
                    being of children in foster care. There is no Federal requirement
                    regarding how often children in foster care placed in-State are visited by
                    caseworkers. However, the Administration for Children and Families
                    (ACF) reviews caseworker visits as part of its Child and Family Service
                    Reviews (CFSR). As part of these reviews, States are assessed to
                    determine if the frequency of caseworker visits with children (both those
                    in foster care and those receiving in-home services) was sufficient to
                    ensure adequate monitoring of children’s safety and well-being and
                    whether visits focused on substantive issues. ACF uses monthly visits
                    as a minimum benchmark when assessing the frequency of visits;
                    however, in some instances, more frequent visits may be necessary to
                    meet a child’s needs. If visits are less than monthly, States must
                    present substantial documentation that the child’s needs are being met
                    to receive a positive assessment for caseworker visits.1 A positive
                    assessment is referred to as a strength rating; ACF reported that a
                    strength rating for caseworker visits is associated with positive
                    outcomes of achieving permanency and ensuring child safety. ACF
                    reviewed all 50 States, the District of Columbia, and Puerto Rico from
                    2001 through 2004.

                    The difference between the CFSRs and this evaluation is that CFSRs
                    include a detailed review of approximately 50 child welfare cases (a
                    combination of foster care cases and those receiving in-home services),
                    whereas our evaluation included analysis of State frequency standards
                    for children in foster care. In contrast to the CFSRs, OIG’s evaluation
                    focused exclusively on children in foster care and did not examine
                    standards for children receiving in-home services. In addition to
                    examining statewide frequency standards, this evaluation also provided
                    analysis of State capacity to produce statewide reports, and, when
                    available, FY 2003 statewide reports indicating the frequency of

OEI-04-03-00350     S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   1
                    FOSTER CARE
                                                                                                  Report Template Version = 09-08-04




    I N T R O D 
U C T           I O N


                  caseworker visits for at least 70 percent of States’ foster care caseloads.
                  The information in this report should enhance ACF’s oversight of State
                  foster care programs related to the frequency of caseworker visitation.

                  Concerns about State caseworkers’ ability to conduct visits with
                  children in foster care and to meet their needs have been well
                  documented. On a national level, ACF provided a summary of all States
                  with completed CFSRs, with additional information about the 35 CFSRs
                  that were completed during 2002 through 2004. For these 35 States,
                  the ACF summary included details about caseworker visitation for the
                  child welfare cases reviewed, which included both children in foster care
                  and those receiving in-home services. Twenty-seven of the States were
                  cited as needing improvement in the area of frequency of caseworker
                  visits.2 In addition, a review of 500 foster children’s case records from a
                  class action lawsuit in New Jersey was released in 2003.3 The review
                  indicated that 78 percent of children in foster care had at least one
                  period of more than 90 days without contact from a caseworker.4
                  The Foster Care Program
                  The Title IV-E Foster Care Program is an entitlement program
                  administered by the Children’s Bureau within ACF, part of the
                  Department of Health and Human Services (HHS). According to ACF,
                  foster care is defined as “twenty-four-hour substitute care for children
                  placed away from their parents or guardians and for whom the State
                  Agency has placement and care responsibility.”5 Children in foster care
                  live in a variety of placement settings, including family foster homes,
                  foster homes of relatives, group homes, emergency shelters, residential
                  facilities, child care institutions, and preadoptive homes.6
                  The Federal budget for the foster care program in fiscal year (FY) 2005
                  is $4.9 billion.7 HHS anticipates that it will provide funding for 233,000
                  Title IV-E eligible children monthly during FY 2005. States receive
                  Federal matching funds under Title IV-E for children in foster care
                  whose families meet income requirements. States may also direct some
                  of these funds to training and to the operation and development of a
                  computer-based data and information collection system, typically the
                  Statewide Automated Child Welfare Information Systems (SACWIS).
                  Federal Role
                  Although Federal law does not mandate how often caseworkers should
                  visit children placed in-State,8 ACF assesses States as part of the
                  CFSRs to determine if the frequency of caseworker visits with children
                  is sufficient to ensure the adequate monitoring of each child’s safety and

OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   2
                  FOSTER CARE
                                                                                                  Report Template Version = 09-08-04




    I N T R O D 
U C T           I O N


                  well-being. The CFSRs are one of several reviews ACF conducts as part
                  of its Federal oversight role. Other reviews ACF conducts to assess
                  State compliance with Federal requirements include Title IV-E
                  eligibility reviews, Adoption and Foster Care Analysis and Reporting
                  System reviews, and SACWIS reviews.9 Of these reviews, only CFSRs
                  address caseworker visitation.

                  Pursuant to 45 CFR §§ 1355.31-37, promulgated under section 1123A of
                  the Social Security Act (the Act), ACF conducts CFSRs to ensure
                  conformity with Federal child welfare requirements and to measure
                  compliance with State plan requirements under Titles IV-B and IV-E.
                  CFSRs, a joint Federal and State process, examine three categories of
                  child welfare outcomes: safety, permanency, and well-being. In
                  addition, the reviews address systemic factors affecting the child
                  welfare system. If States are not found to be in substantial conformity,
                  they must submit to ACF within 90 days a Program Improvement Plan
                  (PIP) outlining steps to correct deficiencies. States not in substantial
                  conformity in the first round of CFSRs must begin a full review 2 years
                  after approval of their PIP. None of the States (including the District of
                  Columbia and Puerto Rico) were in substantial conformity after the first
                  round, and therefore ACF will schedule each State’s subsequent review
                  upon State completion and ACF evaluation of the PIP.

                  As part of CFSRs, a total of approximately 50 child welfare cases (a
                  combination of foster care cases and those receiving in-home services)
                  are reviewed in each State from selected sites.10 One of the items
                  assessed is caseworker visits with children. Each case is rated as either
                  a strength or needs improvement, and the State is given an overall
                  rating for all cases reviewed.
                  State Role
                  Although all States must comply with Federal regulations to receive
                  Federal funding, each State determines how services are provided to
                  children in foster care. States develop their own standards for
                  frequency of caseworker visits. The structure of foster care systems
                  varies from State to State and often varies within States. Some have
                  State-administered systems in which the State directly provides foster
                  care services to children. Other States have county-administered
                  systems; the State retains responsibility for the safety and well-being of
                  children in foster care while counties provide the services. Adding a
                  further layer of complexity, some State and county-administered



OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   3
                  FOSTER CARE
                                                                                                  Report Template Version = 09-08-04




    I N T R O D 
U C T           I O N


                  programs contract a portion of or all foster care services to private 

                  agencies. 

                  To be eligible for foster care payments, States must submit a plan to be
                  approved by the HHS Secretary. Section 471(a)(22) of the Act requires
                  that the plan include “standards to ensure that children in foster care
                  placements in public or private agencies are provided quality services
                  that protect the safety and health of the children.” In addition, the
                  State plan must provide for the development of a written case plan for
                  each child and provide for a case review system (section 471(a)(16)).
                  The case plan must include steps for ensuring that the child receives
                  safe and proper care and that services are provided to the child, parents,
                  and foster parents to address the needs of the child while in foster care
                  (section 475(1)(B)). State case review systems must include procedures
                  for ensuring that the status of each child is reviewed at least every
                  6 months by either a court or by administrative review (section
                  475(5)(B)).
                  State Systems for Documenting Caseworker Visits
                  Statewide Automated Child Welfare Information Systems. Many States have
                  implemented or are in the process of implementing SACWIS. The
                  development and implementation of SACWIS is not mandatory;
                  however, many States and the District of Columbia chose to accept
                  Federal matching funds to develop these systems. Approximately
                  $2.8 billion in Federal and State funds have been spent on the design,
                  development, implementation, and operation (including initial and
                  replacement hardware) of SACWIS since 1994. According to the ACF
                  Web site, as of May 2005, 45 States (including the District of Columbia)
                  are in various stages of development, implementation, or planning of
                  such systems. Six States have no SACWIS activity planned.11
                  A SACWIS functions as a comprehensive case management tool for
                  caseworkers’ foster care and adoption assistance case management. To
                  provide a unified automated tool to support child welfare services,
                  States were also encouraged to structure their SACWIS to support child
                  protective and family preservation services.12 In addition, pursuant to
                  45 CFR § 1355.53, these systems are required to produce data for the
                  Adoption and Foster Care Analysis Reporting System and the National
                  Child Abuse and Neglect Data System. As specified in ACF Transmittal
                  No. ACF-OISM-001, SACWIS is also required to support both case
                  planning and administrative review processes.



OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   4
                  FOSTER CARE
                                                                                                  Report Template Version = 09-08-04




    I N T R O D 
U C T           I O N


                  States may choose to include a field to record caseworker visits with
                  children in their SACWIS. The ability to produce reports detailing how
                  frequently caseworkers visit children depends on individual State
                  priorities, stage of automated system development, and how States have
                  developed their systems. Even States with implemented systems may
                  not have the capability to produce these reports. States are not
                  required to produce reports; however, statewide visitation reports are
                  one resource States can utilize to determine the extent to which
                  caseworkers are visiting children in foster care.
                  Other Systems for Documentation. States may also develop non-SACWIS
                  systems to monitor caseworker visits with children; these systems may
                  be eligible for Title IV-E funding. Types of systems States can develop
                  include new Web-based systems or modifications to legacy systems.

                  Some States do not use any automated system to record caseworker
                  visitation, relying instead on paper case files. Due to the variation in
                  States with or without automated systems, types of automated systems
                  (SACWIS and other State-developed systems), and stages of automated
                  system development, States may record caseworker visitation in
                  automated systems, in paper case files, or in a combination of
                  automated systems and paper case files.
                  Related Work
                  This report is the first in a series of three reports about caseworker
                  visits with children in foster care. In the second report, “State
                  Standards and Practices for Content of Caseworker Visits With
                  Children in Foster Care,” OEI-04-03-00351, OIG analyzed State written
                  standards for the content of caseworker visits. The third report in the
                  series, “Compendium of State Standards: Content of Caseworker Visits
                  With Children in Foster Care,” OEI-04-03-00353, provides State written
                  standards guiding the content of caseworker visits with children in
                  foster care. The compendium includes standards provided by 38 States.

                  In addition to Office of Inspector General work, the Government
                  Accountability Office (GAO) released a report in 2003 detailing the
                  challenges States experienced while implementing SACWIS. GAO
                  found that the reliability of child welfare data from SACWIS could be
                  improved.13 GAO also examined the CFSRs in a 2004 evaluation and
                  found that ACF and the States viewed the reviews as a valuable
                  process. The report offered several recommendations to further improve
                  the reviews.14


OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   5
                  FOSTER CARE
                                                                                                   Report Template Version = 09-08-04




    I N T R O D   U C T           I O N 





                   METHODOLOGY
                   For the purpose of our evaluation, we defined visits as face-to-face
                   contacts between caseworkers and children placed in foster care. Visits
                   can take place in a variety of locations, including but not limited to the
                   foster care placement (where the child lives), school, and the child
                   welfare office. We defined standards as written procedures providing
                   guidance for caseworker visitation included in State law, regulations,
                   policies, memoranda, or other documents.

                   We requested the 50 States, the District of Columbia, and Puerto Rico to
                   provide State standards for caseworker visits. Puerto Rico did not
                   respond. To provide a comprehensive picture of how caseworker visits
                   were addressed, the 50 States and the District of Columbia (referred to
                   as 51 States throughout this report) also completed a structured data
                   collection instrument via e-mail and participated in a structured
                   telephone interview. In addition, we requested that all States provide
                   statewide reports of caseworker visits. We also interviewed
                   organizations with expertise in child welfare and conducted site visits in
                   two States.
                   Documentation Review, E-Mail Data Collection Instrument, and Phone
                   Interview
                   A critical component of data collection was our review of 51 States’
                   written standards related to caseworker visits. We specifically
                   requested current standards from the States for the following areas:

                   o 	       Frequency of caseworker visits,

                   o 	       Location where caseworker visits should occur, and

                   o 	       System in which caseworkers document visits (State automated
                             system and/or paper case file records).

                   Documentation from the 51 States was supported by responses from
                   both the e-mail data collection instruments and the telephone
                   interviews. The data collection instruments and interviews were
                   completed between February and July 2004. If there were discrepancies
                   between State documentation and State responses, we worked with the
                   States to resolve these differences. When State information was
                   incomplete, we continued to follow up with States throughout the fall of
                   2004. The information presented in our report regarding State written
                   standards represents standards in place between February and July
                   2004.

OEI-04-03-00350    S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   6
                   FOSTER CARE
                                                                                                  Report Template Version = 09-08-04




    I N T R O D 
U C T           I O N


                  Although the documentation review was the primary data source for 

                  standards related to caseworker visits, the e-mail data collection 

                  instrument and interviews helped provide a comprehensive picture of

                  State policies and practices. States responded to question areas 

                  including, but not limited to, standards for caseworker visits and the 

                  status of automated systems. We developed automated databases to 

                  compile survey and documentation information collected from States. 

                  We analyzed data to compile categorizations of State responses and to 

                  aggregate our data. 

                  Statewide Monthly Reports of Caseworker Visitation With Children in Foster
                  Care
                  Using a benchmark of monthly visits from ACF’s CFSRs, we asked all
                  States to submit monthly statewide caseworker visitation reports. We
                  requested FY 2003 data (October 1, 2002, through September 30, 2003)
                  since it was the most recent complete fiscal year of data available at the
                  time of our evaluation. The request allowed us to test the extent to
                  which States could provide reports. In addition, monthly data allowed
                  us to systematically determine the extent to which State reports
                  indicated that caseworkers were visiting children in foster care. For
                  each month in FY 2003, we asked States to provide the total number of
                  children in foster care and the number who received caseworker visits.
                  If States did not immediately provide reports or required additional
                  clarification, we e-mailed them a table providing an example of the
                  requested data.

                  Based on these data, we calculated a monthly average of children
                  visited in FY 2003 by dividing the number of children visited each
                  month throughout the year by the total number of children in foster
                  care. For example, if for a 6-month period there were 100 children in
                  foster care each month and the numbers of children visited were 40, 50,
                  60, 70, 80, and 90, then the monthly average number of children visited
                  would be 65 percent ((40+50+60+70+80+90)/600). Our report presents
                  both the monthly range as well as the monthly average for each State
                  when available. If States were unable to produce reports, we
                  determined the reasons during our telephone interview. This type of
                  statewide data had never been systematically requested from States on
                  a national level before our evaluation.

                  We anticipated several reasons that States would not be able to meet
                  our request for monthly statewide visitation reports. First, a statewide
                  report of caseworker visitation was only available if a State recorded

OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   7
                  FOSTER CARE
                                                                                                  Report Template Version = 09-08-04




    I N T R O D 
U C T           I O N


                  visits in a statewide, automated system or performed and reported
                  summary information from statewide reviews of foster care cases. If
                  States did not have statewide data for the entire 12-month period, we
                  accepted data for the months available. Also, if a State had a previous
                  report providing aggregate visitation information for FY 2003 that was
                  not detailed for each month, we accepted those reports as well. We
                  requested monthly data for our analysis, and also gave States the option
                  of providing quarterly information in addition to the monthly data;
                  however, we did not request that States provide visitation data in
                  accordance with their frequency standards. For example, if a State had
                  a biweekly visitation standard, we did not request biweekly visitation
                  data. Data presented in the report are annotated to reflect any
                  limitations in Appendix C.

                  In addition to statewide reports that included children placed in foster
                  care, we also received reports from some States that included a sample
                  of their foster care cases. Due to the limited number of cases and the
                  wide variation in how this information was presented by each State, we
                  only included statewide reports that included at least 70 percent of
                  children in foster care.
                  Interviews With Organizations and Site Visits to States
                  To gain a richer understanding of how caseworker visits were addressed
                  in States prior to designing our evaluation, we interviewed
                  organizations and conducted site visits in two States. The organizations
                  included: Chapin Hall, the Center for Law and Social Policy, Children’s
                  Defense Fund, Children’s Rights, Inc., Child Welfare League of
                  America,15 the Heritage Foundation, and the Urban Institute. In
                  addition, we visited one predominately urban State and one State that
                  was more rural (Florida and Kentucky) to: examine foster care records
                  and determine the format in which caseworker visits were recorded,
                  interview State and local administrators, conduct a focus group with
                  foster parents (Kentucky only), interview caseworkers, collect State
                  regulations and policies regarding caseworker visitation, and review
                  computer data systems. We also solicited input from ACF staff.
                  Limitations
                  Safety of children in foster care is affected by many factors in addition
                  to frequency of caseworker visits. However, our evaluation focused
                  specifically on frequency of caseworker visits and does not address any
                  other factors. We focused exclusively on standards and reports from the
                  State level. We did not examine standards from local or county levels of

OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   8
                  FOSTER CARE
                                                                                                   Report Template Version = 09-08-04




    I N T R O D   U C T           I O N


                   State child welfare systems, nor did we examine standards private
                   agencies may have in place. In addition, our review of visitation
                   standards was limited to children placed in-State and did not include
                   children placed out-of-State. Also, many States have exceptions to their
                   visitation standards, which are determined by factors such as how
                   recently the child was placed in foster care, type of placement setting,
                   needs of the child, case status, and caseworker caseload size. We did
                   not categorize exceptions to State standards.

                   Regarding the reports we received, we did not verify whether the visits
                   reflected in the reports actually occurred, nor did we independently
                   validate that all visits were reflected in reports. Also, we did not assess
                   whether visits were meeting children’s needs.
                   Standards
                   We conducted this inspection in accordance with the “Quality Standards
                   for Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.




OEI-04-03-00350    S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   9
                   FOSTER CARE
                                                                                                        Report Template Version = 09-08-04




  Δ         F I N D I N G S 




           Forty-three States had statewide written           Fifty of fifty-one States had
          standards calling for caseworkers to visit          minimum standards regarding the
             children in foster care at least monthly         frequency of caseworker visits with
                                                              children in foster care.16 Forty-
                        three out of fifty States had statewide written standards that call for
                        caseworkers to visit the majority of children in foster care placed
                        in-State at least once a month. Of these 43 States, 39 had monthly
                        standards and the remaining 4 had more frequent standards. In
                        contrast, the remaining seven States had standards that were less
                        frequent than monthly. They were as follows:

                               o 	 Quarterly (three States),

                               o      Every 2 months (one State), 	
                                                                                                      We define visits as face-to-face
                               o 	 Every 6 weeks (one State),                                         contacts between caseworkers and
                                                                                                      children placed in foster care.
                               o 	 Between once a week and                                            Visits can take place in a variety of
                                   once every 12 weeks (one                                           locations, including but not limited
                                   State), and                                                        to, where the child lives, school,
                                                                                                      and the child welfare office.
                               o 	 Range from monthly (not to 

                                   exceed 35 days) to quarterly 

                                   (one State). 

                        State standards often specified exceptions that could result in either
                        more or less frequent visits. One common exception that resulted in
                        more frequent visitation standards was how recently the child has been
                        placed in foster care. Other exceptions included type of placement
                        setting, needs of the child, case status, and caseworker caseload size.
                        We did not report exceptions to State standards. For a complete listing
                        of State standards, please refer to Appendix A.

                        States reported several events that contributed to the development or
                        enhancement of their standards for both the frequency and content of
                        caseworker visitation. (States could report more than one event,
                        therefore the total is higher than 50.) States most commonly reported
                        the following:

                        o          Lawsuits and/or consent decrees (8 States),

                        o          Collaboration with child advocacy groups (8 States),

                        o          Child and Family Services Review process (10 States),


OEI-04-03-00350         S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   10
                        FOSTER CARE
                                                                                                    Report Template Version = 09-08-04




    F   I N
          	 D I N G 
S


                    o 	       Other events, such as State legislative action; consultations with
                              other States, ACF, or stakeholders; new leadership or
                              organizational restructuring; media reports; best practice work
                              groups; and a child’s death (17 States).

                    Eighteen States reported that their standards were not modified or
                    developed due to any particular event.
                    Thirty-three States had written standards detailing how often visits should
                    occur in the placement setting: 15 States recommended that every visit
                    occur in the placement, and 18 States recommended some visits in the
                    placement
                    Although there are no Federal requirements mandating that
                    caseworkers visit children where they live, 33 of 50 States’ standards
                    specified that at least a portion of visits should occur in the placement
                    setting for the majority of children in foster care. The specifications
                    ranged from seeing the child in the foster care placement for every visit
                    to outlining that some visits should occur in the foster care placement.
                    Some State standards specified exceptions that could result in either
                    more or less frequent visits in the foster care placement, such as how
                    recently the child was placed in foster care and type of placement
                    setting. However, we did not categorize these exceptions to State
                    standards. For a complete listing of State standards, please refer to
                    Appendix B.

                    Fifteen of the 33 States had standards stating that children should be
                    seen in their foster care placements during every visit. These States
                    most often reported that the main value in requiring visits where the
                    child lives was the ability to assess child safety and well-being or the
                    home environment. Other benefits cited by States included ensuring
                    that the child’s needs are being met
                    while in care, building caseworker           “We feel it’s very important for
                    relationships with the child, ensuring       the caseworker to see where the
                    that the child is actually at the foster
                                                                 child is living . . . it is our
                                                                 belief that the State assumes the
                    home, assessing the nature of the 	
                                                                 responsibility of the parent.”
                    foster parent’s relationship with the
                                                                 —West Virginia
                    child, and assessing other children in
                    the home.

                    Eighteen out of thirty-three States had standards stating that some
                    visits occur in the placement. For these 18 States, standards for visits
                    where the child lives were less frequent than the minimum visitation
                    standards. We determined that State standards recommended visits:

OEI-04-03-00350     S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   11
                    FOSTER CARE
                                                                                                      Report Template Version = 09-08-04




    F   I N
          	 D I N G    S




                      o 	       Quarterly in the foster care placement (eight States),

                      o 	       Every 2 months in the foster care placement (six States),

                      o 	       Where the child lives, but not at a specific frequency (three
                                States), or

                      o 	       At least once every 6 months in the foster care placement (one
                                State).


Twenty out of fifty-one States demonstrated their            Production of statewide visitation
ability to produce statewide reports detailing the           reports is one method States can
  extent to which visits occurred during FY 2003             use to determine how frequently
                                                             caseworkers are visiting children
                      in foster care. Therefore, we requested State reports detailing
                      caseworker visits with children in foster care for FY 2003. Given the
                      significant Federal investment in SACWIS, we anticipated that
                      SACWIS would be a likely source of State visitation reports. There are
                      no specific Federal requirements for States to produce reports reflecting
                      caseworker visitation.
                      Of the 20 statewide reports, 19 were from States with SACWIS and 1 resulted
                      from a State administrative review process
                      Many States’ SACWIS were structured to produce reports before our
                      evaluation. Some States used the reports to monitor caseworker visits.
                      We are aware of at least two States that post their visitation reports
                      either on the Web or on their own Intranet. In contrast, other States
                      were not producing visitation reports prior to our evaluation and
                      produced these reports specifically at our request. One such State
                      produced both our requested statewide report and specific reports for
                      localities within the State to be used by local foster care offices.

                      Only one State, Colorado, provided a visitation report resulting from a
                      review of caseworker visits during its 6-month administrative reviews of
                      children in foster care. Children were reviewed 6 months after
                      placement in foster care and every 6 months thereafter. Cases were
                      assigned a “yes” if it was determined that the caseworker had a monthly
                      visit with the child after the first month. The cases were then
                      summarized in statewide reports. In FY 2003, Colorado generated the
                      case review results using its own proprietary database. However,
                      beginning in July 2004, these reports were generated from its SACWIS.


OEI-04-03-00350       S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   12
                      FOSTER CARE
                                                                                                      Report Template Version = 09-08-04




    F   I N
          	 D I N G    S           



                      We identified several impediments to report production from the 31 States
                      that did not provide statewide automated caseworker reports
                      Based on States’ responses to the telephone interviews and their
                      documentation standards and practices, we identified three impediments
                      to State report production:
                      o 	 Documentation: States record visitation information primarily in
                            paper case files.

                      o 	       Insufficient capacity: State automated systems could not produce
                                reports, either because systems were not implemented statewide
                                or because systems were not structured to extract the information.

                      o 	       Lack of resources: States reported they did not have resources
                                such as staffing or computer time to produce the reports.

                      These impediments are explained below.
                      Eighteen of the thirty-one States recorded caseworker visits primarily in paper
                      case files during FY 2003. These States did not provide statewide reports
                      detailing caseworker visitation for FY 2003. Many of these States were
                      in the process of either planning or implementing SACWIS or other
                      automated systems. However, these States reported that during
                      FY 2003, caseworkers were not recording visits primarily in an
                      automated system. One of the eighteen States reported that
                      caseworkers were not recording visits in their automated system in FY
                      2003; however, this State reported it could produce statewide visitation
                      reports starting in 2004. Four of the eighteen States reported that they
                      had automated system capacity to record caseworker visits, but that
                      caseworkers were still using paper case files as their primary record of
                      visits in FY 2003.
                      Eight of the thirty-one States reported that their systems did not have the capacity
                      to produce visitation reports for FY 2003. The specific issues affecting capacity
                      varied. In one of these eight States, SACWIS had not yet been
                      implemented statewide, and therefore the data were not available for all
                      children. In this State, visits were recorded in both the automated system
                      and in paper case files. In another five of these eight States, visits were
                      documented in the automated
                      system but the system was not             “[We] built the program to gather
                      structured to produce the                 caseworker contacts 11 months ago
                      reports. One of the eight States          [Fall 2003] . . . still getting the bugs
                      reported that its system was not          out of the system . . .”— Oregon
                      developed in time to produce

OEI-04-03-00350       S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   13
                      FOSTER CARE
                                                                                                      Report Template Version = 09-08-04




    F   I N D I N G    S


                      reports specifically for FY 2003, but reported that capability for 2004.
                      Another State reported that it was still working through issues with its
                      system.
                      Five of the thirty-one States reported that they did not have the resources to
                      produce the reports. These States cited issues such as limited staff
                      resources or computer time as the reasons they could not produce the
                      reports. One of these States cited the competing priority of the CFSRs
                      as a barrier to generating reports.
                      Two of the five States reported that           “[We] don't have the manpower to
                      their systems would have the                   generate reports.” — New Mexico
                      capability to produce visitation
                      reports in 2004.

           Seven of the twenty statewide reports          Using the benchmark of monthly
                                                          visits from ACF’s CFSRs, we asked
     indicated on average that fewer than half of
                                                          all States to submit monthly
   children in foster care were visited monthly in
                                                          statewide caseworker visitation
                                          FY 2003         reports. Twenty States provided
                      statewide reports, and these States had different visitation standards.
                      States with standards for at least monthly visits
                      Seventeen States with standards for at least monthly visitation
                      submitted statewide reports for FY 2003. These reports reflected on
                      average that 5 of the 17 States visited fewer than half of children
                      monthly. Five other State reports detailed that on average between
                      50 and 75 percent of children were visited monthly. The remaining
                      seven States provided reports indicating that between an average of
                      76 and 97 percent of their children were visited monthly.
                      States with standards for visits less frequent than monthly
                      The three remaining States that also submitted reports did not have
                      monthly visitation standards. Virginia and Washington both had a
                      quarterly minimum visitation standard. Iowa had minimum visitation
                      standards ranging from monthly (not to exceed 35 days) to quarterly,
                      depending on both the placement setting and whether private agencies
                      provide the foster care services.

                      Virginia provided monthly reports for FY 2003 which indicated that an
                      average of 45 percent of children were visited monthly. Iowa provided
                      both monthly and quarterly information. Its report indicted that
                      on average 24 percent of children were visited monthly and that, on
                      average, 88 percent of children were visited by the end of the quarter.
                      In contrast, Washington provided a quarterly report for April through

OEI-04-03-00350       S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   14
                      FOSTER CARE
                                                                                                     Report Template Version = 09-08-04




       F   I N D I N G     S

                     June 2003. The report showed that 58 percent of children were visited
                     during the quarter. Monthly data were not available.
                     State-reported factors affecting visitation rates
                     States reported multiple factors that may have resulted in lower
                     visitation rates in their reports. These factors could affect accurate
                     reporting for the visitation rate and/or actual visitation frequency.
                     Seven States reported that the percentages reflected in their reports
                     were affected by documentation issues. These issues included workers
                     not documenting visits in the system or workers using the wrong codes
                     or fields for data entry. Five States cited other issues that negatively
                     affected their visitation rate, such as private providers not entering
                     visits in the system and visits only being included in the reports if they
                     took place specifically in the foster care placement. Five States reported
                     that insufficient staffing/high caseloads affected their rates. These
                     factors affected some States more than others. For example, of the two
                     States that reported that private provider visits were not included in
                     reports, one had a 44 percent monthly average visitation rate and the
                     other had a 78 percent rate. The range and severity of some of these
                     factors reported by States clearly can result in reports in which not all
                     visits that occurred are reflected in State monthly averages. In other
                     instances, the factors affected actual visitation frequency.

                     States also cited several positive areas affecting caseworker visitation.
                     Seven States indicated either that conducting caseworker visits was a
                     priority, or that it was something that was closely monitored. The
                     positive impact of monitoring the visitation rate was also indicated by
                     States that had comparatively low rates in FY 2003. Five States
                     reported that they either improved their visitation rates by the end of
                     2003 or were able to significantly improve their rates after that time.
                     Two additional States reported plans to address visitation issues
                     through their CFSR PIP. For a detailed summary of each State’s
                     visitation report and the factors affecting visitation rates, refer to
                     Appendix C, Tables 1 and 2.




OEI-04-03-00350      S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   15
                     FOSTER CARE
                                                                                                      Report Template Version = 09-08-04




  Δ         R E C O M M E N D A T I O N S                                                         



                    Children in foster care represent one of the most vulnerable segments of
                    our society. We recognize that child welfare programs are complex and
                    that States face challenges related to competing priorities, resource
                    issues, and the implementation of automated systems. However,
                    caseworker visits with children in foster care are a critical element of
                    ensuring child safety and well-being. Most recently, ACF found that
                    27 out of 35 States needed to improve the frequency of caseworker visits
                    with children. Our study found that 50 out of 51 States have statewide
                    written standards regarding the frequency of caseworker visits with
                    children in foster care. Most States have implemented standards for at
                    least monthly visits for the majority of children in foster care. In
                    addition, many States have developed or are in the process of developing
                    statewide automated systems (both SACWIS and non-SACWIS). For
                    our evaluation, 19 States produced reports from SACWIS. These
                    systems provide the opportunity for States to quantify the extent to
                    which caseworkers visit children in foster care. Therefore, to the extent
                    to which ACF wants to strengthen States’ abilities to quantify how often
                    caseworkers within their State are visiting children, we recommend the
                    following:
                    For States with limited or nonexistent automated capacity to record the
                    frequency of caseworker visits and produce statewide reports, ACF should
                    promote the development of automated systems such as SACWIS.

                    These reports could be particularly useful for States cited in the CFSRs as
                    “needing improvement” in the area of frequency of caseworker visits. The
                    reports would also enhance ACF’s ability to monitor caseworker visits,
                    providing statewide, comprehensive visitation data. Some States have
                    already begun to examine caseworker visits through automated systems to
                    ensure that visits are occurring, even though there are no requirements to
                    have systems structured to produce these reports. Several States in our
                    evaluation reported that although caseworkers were recording information
                    in automated systems, this information could not be extracted to produce
                    reports. As SACWIS and other systems continue to develop, ACF should
                    consider working with States to ensure that systems are structured to both
                    record visits and produce reports.




OEI-04-03-00350     S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   16
                    FOSTER CARE
                                                                                                      Report Template Version = 09-08-04




    R   E C O     M M E N D A T                        I O N                 S



                      For States with automated system capacity to record the frequency of
                      caseworker visits and produce statewide reports, ACF should work with
                      States to ensure that visitation data are recorded in automated systems.

                      Seven States that provided reports indicated that their visitation rates
                      were affected by documentation issues in FY 2003. ACF should continue
                      to assist States to develop clear policies for recording caseworker visits in
                      automated systems to promote the accuracy of reports. Improved
                      visitation data would allow both ACF and the States to monitor visitation
                      frequency with enhanced accuracy, and thereby plan program
                      improvements more effectively.


                      AGENCY COMMENTS
                      In its comments to the draft report, ACF concurred with our
                      recommendations. ACF plans to initiate an effort to develop direct
                      guidance to States to implement management reporting capabilities to
                      determine the frequency and outcomes of client visitation.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We appreciate ACF’s comments to this report and are pleased that it
                      will continue to provide technical assistance to States in the area of
                      automation. In addition, we look forward to ACF’s development of
                      direct guidance that will assist States in implementing management
                      reporting capabilities within current automated systems specific to
                      client visitation.




OEI-04-03-00350       S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   17
                      FOSTER CARE
                                                                                                        Report Template Version = 09-08-04




     Δ            A G E N C Y                  C O M M E N T S                                           





OEI-04-03-00350         S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   18

                        FOSTER CARE

                                                                                                        Report Template Version = 09-08-04




    A G     E N   C Y      C O          M M E N T                              S 





OEI-04-03-00350         S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   19

                        FOSTER CARE

                                                                                                        Report Template Version = 09-08-04




    A G     E N   C Y      C O          M M E N T                              S 





OEI-04-03-00350         S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   20

                        FOSTER CARE

                                                                                                        Report Template Version = 09-08-04




     Δ            E N D N O T E S                              




                        1   http://www.acf.hhs.gov/programs/cb/cwrp/tools/onsitefinal.pdf.

                        2    http://www.acf.hhs.gov/programs/cb/cwrp/results/statefindings/
                              genfindings04/index.htm, accessed November 1, 2005.

                        3   http://childrensrights.org/press_releases/07-09-03.htm, accessed
                             December 8, 2004.

                        4   Figure applies to children in foster care longer than 90 days.

                        5    http://www.acf.hhs.gov/programs/cb/publications/cm01/appendb.htm,
                              accessed April 25, 2005.

                        6    http://www.acf.hhs.gov/programs/cb/publications/cm01/appendb.htm,
                              accessed April 25, 2005.

                        7   http://www.hhs.gov/budget/05budget/acf.html, accessed April 25, 2005.

                        8   For children placed in foster care out of State, the Federal Government
                             requires a minimum of one annual visit either by the State in which
                             the child’s parents live or by the State in which the child has been
                             placed. [Section 475(5)(A)(ii) of the Social Security Act.]

                        9   http://www.acf.dhhs.gov/programs/olab/legislative/testimony/2004/cw_
                             testimony.htm, accessed April 25, 2005.

                        10   The cases reviewed onsite are selected from a random oversample of no
                             more than 150 foster care and 150 in-home services cases. 45 CFR
                             1355.33(c)(6). The onsite review may take place in several political
                             subdivisions of the State, but must include a State’s largest
                             metropolitan subdivision. 45 CFR 1355.33(c)(2).

                        11   http://www.acf.hhs.gov/programs/cb/dis/sacwis/statestatus.htm,
                             accessed May 11, 2005.

                        12   http://www.acf.hhs.gov/programs/cb/dis/sacwis/about.htm, accessed
                             May 11, 2005.




OEI-04-03-00350         S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   21
                        FOSTER CARE
                                                                                                  Report Template Version = 09-08-04




                  13   http://www.gao.gov/new.items/d03809.pdf.

                  14   http://www.gao.gov/new.items/d04333.pdf.

                  15   The Child Welfare League of America (CWLA) recommends that
                       caseworkers visit children in foster care monthly. CWLA’s standards
                       allow for more or less visitation based on the needs of the child or as
                       requested by the foster parent, but never less than once every 2
                       months.

                  16   Wisconsin did not have a minimum visitation standard that applied
                       statewide. This State provided monthly standards from its only State-
                       administered county, which were created as a result of a lawsuit.
                       Wisconsin reported that most local offices/counties had standards for
                       frequency.




OEI-04-03-00350   S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   22
                  FOSTER CARE
                                                                                                      Report Template Version = 09-08-04




  Δ         A P P E N D I X                            ~          A

                      Table 1 shows the caseworker visitation standards reflected in State
                      documentation for the majority of children in foster care. Table 2
                      describes the standards for States classified as “Other” in Table 1 (Iowa
                      and New Jersey).


   Table 1: Minimum Caseworker Visitation Standards for the Majority of Children in Foster
                               Care, February–July 2004
State     Weekly Twice        Monthly       Every 6 Every 2       Quarterly      Other*
                  Monthly                   weeks     Months
AK                                  X
AL                                  X
AR           X
AZ                                  X
CA                                  X
CO                                  X
CT                                  X
DC                     X
DE                                  X
FL                                  X
GA                                  X
HI                                  X
IA                                                                                    X
ID                                  X
IL                                  X
IN                                                         X
KS                                  X
KY                                  X
LA                                  X
MA                                  X
MD                                  X
ME                                             X
MI                                  X
MN                                  X
MO                     X
MS                                  X
MT                                  X
NC                                  X
ND                                  X
NE                                  X
NH                                  X
NJ                                                                                    X
NM                                  X
NV                                  X

OEI-04-03-00350       S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   23
                      FOSTER CARE
                                                                                                                     Report Template Version = 09-08-04




A   P     P E N D          I X ~      A          


       Table 1: Minimum Caseworker Visitation Standards for the Majority of Children in Foster
                                   Care, February–July 2004
    State     Weekly Twice        Monthly       Every 6 Every 2       Quarterly      Other*
                      Monthly                   weeks     Months
    NY                                                                      X
    OH                                  X
    OK                                  X
    OR                                  X
    PA                                  X
    RI                                  X
    SC                                  X
    SD                                  X
    TN                     X
    TX                                  X
    UT                                  X
    VA                                                                      X
    VT                                  X
    WA                                                                      X
    WV                                  X
    WY                                  X
     Total       1         3           39          1           1            3             2
    *Please refer to Table 2 for a description of “Other” State standards.

        Source: Document review of State foster care visitation standards by OIG.




        Table 2: Description of Minimum Visitation Standards for States Categorized as Other,
                                       February–July 2004
     State                             Minimum Visitation Standards
    IA       Standards vary depending on both the placement setting and whether the services are
             purchased. Standards range from monthly (not to exceed 35 days) to quarterly.
    NJ       Between once a week and once every 12 weeks.
    Source: Document review of State foster care visitation standards by OIG.




    OEI-04-03-00350                  S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   24
                                     FOSTER CARE
                                                                                                           Report Template Version = 09-08-04




        Δ         A P P E N D I X                                    ~             B      



    Standards for How Often Caseworkers Were Instructed to Visit Children Specifically in Foster Care Placement,
                                              February–July 2004
State    Minimum       Same as     Every 2     Quarterly Every 6         Recommend          No Specifications
         Visitation    Minimum Months                       Months       Visits Take
         Standard      Visitation                                        Place in Home
                       Guideline
AK       Monthly                       X
AL       Monthly                                   X
AR       Weekly             X
AZ       Monthly                                   X
CA       Monthly                                                                                        X
CO       Monthly                       X
CT       Monthly                                                                                        X
DC       Twice a            X
         Month
DE       Monthly                                   X
FL       Monthly            X
GA       Monthly                       X
HI       Monthly                                                                X
IA       Other*                                                                                         X
ID       Monthly            X
IL       Monthly            X
IN       Every 2            X
         Months
KS       Monthly            X
KY       Monthly            X
LA       Monthly                                   X
MA       Monthly                                                                                        X
MD       Monthly                                   X
ME       Every 6                                   X
         Weeks
MI       Monthly                       X
MN       Monthly                                                                                        X
MO       Twice a                                                                                        X
         Month
MS       Monthly                                                                                        X
MT       Monthly                                   X
NC       Monthly                                                                                        X
ND       Monthly                                                                                        X
NE       Monthly                       X
NH       Monthly            X
NJ       Other*                                                                 X
NM       Monthly            X
NV       Monthly                       X
NY       Quarterly                                                                                      X
OH       Monthly                                                 X
OK       Monthly            X
OR       Monthly                                                                                        X
PA       Monthly                                                                                        X
RI       Monthly                                                                X


OEI-04-03-00350            S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   25
                           FOSTER CARE
                                                                                                                   Report Template Version = 09-08-04




A   P   P E N D         I X ~      B           



        Standards for How Often Caseworkers Were Instructed to Visit Children Specifically in Foster Care Placement,
                                                  February–July 2004
    State    Minimum       Same as     Every 2     Quarterly Every 6         Recommend          No Specifications
             Visitation    Minimum Months                       Months       Visits Take
             Standard      Visitation                                        Place in Home
                           Guideline
    SC       Monthly                                                                                        X
    SD       Monthly                                                                                        X
    TN       Twice a                                                                                        X
             Month
    TX       Monthly                                   X
    UT       Monthly            X
    VT       Monthly                                                                                        X
    VA       Quarterly                                                                                      X
    WA       Quarterly          X
    WV       Monthly            X
    WY       Monthly            X
     Total                     15          6           8             1              3                      17
    *See Appendix A, Table 2. 


    Source: Document review of State foster care visitation standards by OIG. 





    OEI-04-03-00350                S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   26
                                   FOSTER CARE
                                                                                                                                                         Report Template Version = 09-08-04




Δ       A P P E N D I X                              ~          C


The following tables provide caseworker visitation data for the 20 States that provided statewide reports. These tables present a
State-by-State comparison of visitation standards and rates for FY 2003. While we were most interested in statewide data for
foster care cases only, States track their foster care population in different ways. Several States monitor children in foster care as
part of their overall child welfare population and therefore include other groups in these reports, such as children receiving
in-home care or children in independent living programs. Some States excluded specific populations for reasons such as children
belonging to a particular placement status (e.g., adoptive placements), children classified as runaways, or children subject to a
different visitation standard. In addition, some States chose to include out-of-State children, while other States excluded this
population. For these reasons, we have included a column entitled “Data Considerations” for each State, describing excluded
populations and other important information for understanding each State’s visitation rate.
Unless otherwise indicated, the visitation rates below represent face-to-face visits with all children in foster care (regardless of
whether the visits occurred in the placement) with the exception of AR, MA, and WA, which only include visits that occurred in the
placement in their visitation data.

Table 1 includes the visitation information for the 17 States with at least monthly visitation standards, with the following 

columns:


    o     State minimum visitation standards,

    o    FY 2003 months included in State reports,
    o     Monthly range and monthly average of children visited for FY 2003,
    o     Data considerations about populations included in State reports, and

    o     State reported factors affecting the visitation rate.



Table 2 provides the visitation data for three States with visitation standards less frequent than monthly. It includes the same 

information as Table 1, and also lists the type of data provided (monthly and quarterly) as well as the quarterly visitation range 

and average for FY 2003 when available. 





OEI-04-03-00350           S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER CARE                              27
                                                                                                                                                                   Report Template Version = 09-08-04



     A   P   P E N D       I X ~     C          


                                 Table 1: Caseworker Visitation Reports for FY 2003 Generated by States With at Least Monthly Standards
State    Minimum      Months        Range of      Monthly State-Reported Data Considerations                                          State-Reported Factors Affecting
         Visitation   Included      Children in   Average                                                                             Visitation Rate
         Standard                   Care Visited
                                    Monthly
AR       Weekly       12 Months:    68-75%        71%         Populations excluded: Out-of-State children, children in therapeutic    The State reported that the most
                      10/01/02-                               foster homes, and children in preadoptive placements (totaling          significant factor negatively
                      09/30/03                                approximately 22 percent during FY 2003). Children in the report for    affecting visitation is staffing. “As
                                                              whom monthly data were not available are not included in these          time goes on, caseload [size] has
                                                              figures (less than 1 percent).                                          increased.” In addition, the State
                                                              Other: Visits reflected in the report include only those occurring in   reported that documentation issues
                                                              the placement; face-to-face visits occurring elsewhere are not counted. may result in lower visitation rates.
AZ       Monthly      12 Months:    55-66%                     59%                    Populations excluded: Out-of-State children and runaway children                       AZ reported that the percentage
                      10/01/02-                                                       (totaling approximately 5 percent of caseload for April through                        reflects visitation that is accurately
                      09/30/03                                                        September 2003).                                                                       documented in SACWIS [if workers
                                                                                                                                                                             did not always accurately document
                                                                                                                                                                             their visits, this would result in a
                                                                                                                                                                             visitation rate that did not reflect
                                                                                                                                                                             all visits conducted].
CA       Monthly      6 Months:     85-86%                     86%                    Populations excluded: Children classified as having exceptions to                      CA reported changing its
                      04/03-09/03                                                     their monthly visitation standard (an average of 20 percent per                        methodology for generating reports
                                                                                      month). Exceptions included: child contacted by another agency,                        in July 2004, resulting in reporting
                                                                                      child placed with legal guardian, child placed with relative, child                    data on more children in care (fewer
                                                                                      placed out of State, child receiving family reunification services/                    exclusions).
                                                                                      stable, child receiving permanent placement services/stable, child
                                                                                      under 2 years of age, and child’s whereabouts unknown.
                                                                                      Population included in report in addition to children in foster care:
                                                                                      Children receiving in-home care (approximately 8.7 percent of total
                                                                                      children during 04/03-09/03).
CO       Monthly      12 Months:    89-94%                     91%                    Populations excluded: Out-of-State children represented                                CO reported that it has improved its
                      10/01/02-                                                       approximately 5 percent of the reviewed population during FY 2003.                     visitation rate dramatically over
                      09/30/03                                                        Other: Statistics are from the review of caseworker visits as part of                  time. It is CO’s view that
                                                                                      CO’s administrative case review of all children in foster care for                     caseworker visits are the most
                                                                                      6 months. Children are reviewed 6 months after placement in foster                     critical element for ascertaining
                                                                                      care and every 6 months thereafter.                                                    child safety.




         OEI-04-03-00350            S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER CARE                              28
                                                                                                                                                                   Report Template Version = 09-08-04


     A   P   P E N D       I X ~     C          


                              Table 1 (cont): Caseworker Visitation Reports for FY 2003 Generated by States With at Least Monthly Standards
State    Minimum      Months         Range of      Monthly State-Reported Data Considerations                                       State-Reported Factors Affecting
         Visitation   Included       Children in   Average                                                                          Visitation Rate
         Standard                    Care Visited
                                     Monthly
DC       Twice a      4 Months:      42-44%        43%        Populations excluded: Children in third-party kinship nonfoster care  In 2001, one of the District’s goals
         Month        06/03-09/03                             and those placed outside DC, MD, and VA or in residential treatment   was to improve data integrity by
                                                              facilities more than 100 miles away were excluded (totaling           focusing on documenting case plans
                                                              approximately 4 percent of children during 06/03-09/03).              for children in foster care in
                                                                                                                                    SACWIS. In 2003, the focus was
                                                                                                                                    shifted to documentation of visits to
                                                                                                                                    children in foster care. DC reported
                                                                                                                                    that as documentation improved,
                                                                                                                                    the monthly visitation rate
                                                                                                                                    increased to 81 percent by 2005.

FL       Monthly      9 Months:     93-96%                     95%                    Out-of-State placements included: Out-of-State children represented                    FL stated that its monthly
                      01/01/03-                                                       approximately 3 percent of children in September 2003.                                 visitation rate is high because of the
                      09/30/03                                                        Population included in report in addition to children in foster care:                  commitment leadership has shown
                                                                                      Children receiving in-home care (approximately 33 percent of children                  and indicated that performance is
                                                                                      01/03-09/03) and children receiving young adult services (accounting                   measured daily. The State
                                                                                      for less than 1 percent of children 03/03-09/03).                                      commented that visitation is
                                                                                                                                                                             necessary for achieving safety and
                                                                                                                                                                             that resources have been dedicated
                                                                                                                                                                             to ensuring that children are seen
                                                                                                                                                                             each month.
KY       Monthly      12 Months:    36-53%                     44%                    Out-of-State placements included: Out-of State children represented                    Visits from private providers are not
                      10/01/02-                                                       approximately 1.5 percent of children in FY 2003.                                      included in the data. KY provided
                      09/30/03                                                        Other: KY reported that approximately 40-45 percent of children                        additional information indicating
                                                                                      were receiving care from private providers. These children receive                     that between 75-82 percent of all
                                                                                      quarterly visits from State caseworkers, and may receive more                          children received a visit from State
                                                                                      frequent visits from private providers. Visits from private providers                  caseworkers by the end of each
                                                                                      are not reflected in these data as private provider visitation is not                  quarter in FY 2003.
                                                                                      tracked by the State in its visitation reports.




         OEI-04-03-00350            S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER CARE                              29

                                                                                                                                                                      Report Template Version = 09-08-04



 A   P    P E N D          I X ~   C           


                                Table 1 (cont): Caseworker Visitation Reports for FY 2003 Generated by States With at Least Monthly Standards
State    Minimum      Months               Range of     Monthly State-Reported Data Considerations                                State-Reported Factors Affecting Visitation
         Visitation   Included             Children in  Average                                                                   Rate
         Standard                          Care Visited
                                           Monthly
MA       Monthly      12 Months:           75-80%       78%         Populations excluded: Out-of-State children represented       The report is a tool management uses to
                      10/01/02-                                     approximately 3 percent of children in September 2003.        assist social workers to focus and prioritize
                      09/30/03                                      Other: Visits reflected in the report include only visits     casework contacts. Visits reflected in the
                                                                    occurring in the placement; face-to-face visits occurring     report only include visits with the child in
                                                                    elsewhere are not counted. In addition, visits conducted by   placement by the child's social worker;
                                                                    private agencies are not included in the report. Visits are   face-to-face visits conducted by the social
                                                                    recorded by those agencies and furnished to the State via     worker assigned to the foster home to work
                                                                    quarterly reports.                                            with the foster parents are not included. In
                                                                                                                                  addition, visits conducted by private
                                                                                                                                  agencies are not included in the report.
                                                                                                                                  Private agency contacts are monitored
                                                                                                                                  separately.
NE       Monthly      11 Months:           11-68%       50%         Out-of-State placements included: Out-of-State children       NE reported the initial monthly percentages
                      11/01/02-                                     represented approximately 1 percent of children in            were low due to the newness of
                      09/30/03                                      September 2003.                                               requirements for caseworkers to enter data
                                                                    Population included in report in addition to children in      into the automated system (August 30,
                                                                    foster care: Children receiving in-home care. According to    2002).
                                                                    the State, in-home care cases represent less than 10
                                                                    percent of total children in FY 2003.
NH       Monthly      6 Months:            NA           49%         Out-of-State placements included: Out-of-State children       NH provided additional information
                      01/01/03-                                     represented approximately 8 percent of children in            indicating that 44 percent of children in
                      06/30/03                                      September 2003.                                               foster family homes were visited at least
                                                                    Populations excluded: Children placed in residential          once a month 07/01/03-12/31/03. However,
                                                                    facilities (approximately 26 percent of total children during NH reported that other measures, such as
                                                                    01/03-06/03) are not included in these figures, since         receiving a CFSR rating of “substantially
                                                                    monthly information was not presented for them.               achieved” for 74 percent of 50 cases
                                                                    Other: Report was a 6-month summary of children in            reviewed, and a more recent management
                                                                    foster family homes visited at least once a month and did     report indicating fewer than 10 percent were
                                                                    not include month-by-month totals. Therefore, a range         not visited in the last 2 months demonstrate
                                                                    could not be calculated.                                      progress on the part of the Division for
                                                                                                                                  Children, Youth and Families.




         OEI-04-03-00350               S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER CARE                              30
                                                                                                                                                                      Report Template Version = 09-08-04


 A      P    P E N D         I X ~     C           



                                 Table 1 (cont): Caseworker Visitation Reports for FY 2003 Generated by States With at Least Monthly Standards
State       Minimum       Months            Range of     Monthly State-Reported Data Considerations                               State-Reported Factors Affecting
            Visitation    Included          Children in  Average                                                                  Visitation Rate
            Standard                        Care Visited
                                            Monthly
OK          Monthly       12 Months:        92-95%       94%         Populations excluded: Out-of-State children, children in     OK reported that it considers visitation to
                          10/01/02-                                  tribal foster care who are not in State custody, children in be a priority and that there is no way to
                          09/30/03                                   care fewer than 14 days, and children in trial adoption      ensure safety, permanency, and well-being
                                                                     (approximately 6 percent of all children during FY 2003).    without visits to the children. The State
                                                                                                                                  reported monitoring visitation closely at
                                                                                                                                  all levels.
SC          Monthly       12 Months:        96-97%       97%         Out-of-State placements included: Out-of-State children      SC reported that “State law requires we
                          10/01/02-                                  represented approximately 4 percent of children in           visit every child, and the counties are good
                          09/30/03                                   September 2003.                                              at that.” SC includes caseworker
                                                                     Population included in report in addition to children in     visitation as one of approximately 15
                                                                     foster care: Children in the independent living program      outcome measures reported to the State
                                                                     (approximately 6 percent of all children during FY 2003).    legislature. SC provided additional
                                                                                                                                  information indicating that 99 percent of
                                                                                                                                  children received a visit by the end of the
                                                                                                                                  quarter.
TN          Twice a       12 Months:        41-81%       53%         Out-of-State placements included: Out-of-State children      TN reported that significant staff turnover
            Month         10/01/02-                                  represented approximately 4 percent of children in FY        rates during FY 2003 were a factor
                          09/30/03                                   2003.                                                        affecting visitation. Since then, TN
                                                                     Populations excluded: Children in the placement types of     indicated it has significantly tightened
                                                                     youth development center and runaway––approximately 10 controls around caseworker visitation and
                                                                     percent of children in September 2003.                       case manager responsibilities. During the
                                                                                                                                  last 3 months of FY 2003, the monthly
                                                                                                                                  visitation rate was 81 percent.
TX          Monthly       12 Months:        69-77%       75%         Out-of-State placements included: Out-of-State children      TX reported several issues that affect
                          10/01/02-                                  represented less than 2 percent of children in September     visitation figures, including that
                          09/30/03                                   2003.                                                        caseworkers were not entering visitation
                                                                                                                                  rates in the correct data field. However,
                                                                                                                                  the State reported that the largest issues
                                                                                                                                  affecting its visitation rate were high
                                                                                                                                  caseloads and turnover.




        OEI-04-03-00350                S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER CARE                              31
                                                                                                                                                                      Report Template Version = 09-08-04




  A     P    P E N D          I X ~     C          


                                 Table 1 (cont): Caseworker Visitation Reports for FY 2003 Generated by States With at Least Monthly Standards
State       Minimum       Months           Range of       Monthly State-Reported Data Considerations                                State-Reported Factors Affecting
            Visitation    Included         Children in    Average                                                                   Visitation Rate
            Standard                       Care Visited
                                           Monthly
UT          Monthly       12 Months:       91-94%         93%         Out-of-State placements included: Out-of-State children       UT stated that caseworker visits are the
                          10/01/02-                                   represented approximately 2 percent of children in            best way for the State to fulfill its
                          09/30/03                                    September 2003.                                               responsibility to children in care, and
                                                                      Other: Starting in May 2003, UT changed its standard          that they have targeted caseworker
                                                                      from twice a month to monthly visits.                         visitation for years.
WV          Monthly       12 Months:       35-46%         42%         Populations excluded: Out-of-State children represented       The State reported that staffing and
                          10/01/02-                                   approximately 15 percent of all children in FY 2003.          caseload issues affected its visitation
                          09/30/03                                                                                                  rate.
WY          Monthly       12 Months:       13-46%         27%         Populations excluded: Children placed out-of-State via        WY reported that the data reflect a
                          10/01/02-                                   Interstate Compact on the Placement of Children, in tribal    period when information was not being
                          09/30/03                                    placements, in adoption placements, and those categorized     routinely entered into the system.
                                                                      as runaways are excluded from the report. (Approximately      However, WY reported that, since
                                                                      30 percent of all children were classified in these groups on May 2004, face-to-face visits were
                                                                      September 30, 2003.)                                          substantially higher and reported a
                                                                                                                                    visitation rate of 82 percent for August
                                                                                                                                    2004.
        Source: Document review of State visitation reports by OIG.




        OEI-04-03-00350                S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER CARE                              32
                                                                                                                                                                      Report Template Version = 09-08-04


     A   P    P E N D         I X ~     C          



                                 Table 2: Caseworker Visitation Reports for FY 2003 Generated by States With Standards Less Frequent Than Monthly
State        Minimum       Type of     Months     Range of      Monthly      Range of    Quarterly State-Reported Data                    State-Reported Factors Affecting
             Visitation    Data        Provided   Children      Average      Children    Average     Considerations                       Visitation Rate
             Standard      Provided               in Care                    in Care
                                                  Visited                    Visited
                                                  Monthly                    Quarterly
IA           Ranges        Monthly     12         21-26%        24%          86-89%      88%         Out-of-State placements included:    IA reported that child welfare staff’s
             from          and         Months:                                                       Out-of-State children represented    high caseloads made monthly visits
             monthly       quarterly   10/01/02-                                                     less than 1 percent of children in   difficult, although IA supplements
             to                        09/30/03                                                      09/03.                               visits by contracting with private
             quarterly                                                                                                                    agencies to visit more frequently.
                                                                                                                                          Also, as part of its CFSR PIP and
                                                                                                                                          child welfare redesign, IA plans to
                                                                                                                                          streamline workload and utilize
                                                                                                                                          alternative services for low-risk
                                                                                                                                          children with the goal of increasing
                                                                                                                                          monthly visitation.
VA           Quarterly     Monthly     12         41-50%        45%          NA          NA          Out-of-State placements included:    The State reported that in light of
                                       Months:                                                       Out-of-State children represented    quarterly standards, the 45 percent
                                       10/01/02-                                                     less than 3 percent of children in   monthly rate indicates that 45
                                       09/30/03                                                      09/03.                               percent of the workers see the
                                                                                                     Population included in report in     importance of monthly visits. The
                                                                                                     addition to children in foster care: State plans to update its visitation
                                                                                                     Children receiving in-home care.     standards in its program
                                                                                                     According to VA, these cases were    improvement plan for the CFSRs.
                                                                                                     approximately 11 percent of total
                                                                                                     children in FY 2003.
WA           Quarterly     Quarterly 3            NA            NA           NA          58%         Populations excluded: Children in    WA reported that its visitation rate
                                       Months:                                                       care for less than 60 days           can be explained in large part by
                                       04/03                                                         (estimated to account for 13 percent documentation issues. The State
                                       06/03                                                         of all children during 04/03-06/03). indicated that during FY 2003, some
                                                                                                     Out-of-State placements included:    visits were not being recorded with
                                                                                                     Out-of State children represented    the correct code, and therefore the
                                                                                                     less than 2 percent of children in   rate was artificially low. WA provided
                                                                                                     09/03.                               additional information indicating
                                                                                                     Other: Report reflects visits        improvement in its visitation data,
                                                                                                     occurring in the placement only;     with an 89 percent quarterly
                                                                                                     face-to-face visits occurring        visitation rate in the placement
                                                                                                     elsewhere are not counted.           during January through March 2005.
         Source: Document review of State visitation reports by OIG.




         OEI-04-03-00350               S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   FOSTER CARE                              33
                                                                                                    Report Template Version = 09-08-04




  Δ         A C K N O W L E D G M E N T S                                                          


                    This report was prepared under the direction of Ann O’Connor, Regional
                    Inspector General for Evaluation and Inspections in the Atlanta
                    regional office, and Graham Rawsthorn, Assistant Regional Inspector
                    General. Other principal Office of Evaluation and Inspections staff who
                    contributed include:

                    Stacey Bloomer, Co-Team Leader
                    Peggy Daniel, Project Lead

                    Linda Moody, Program Specialist

                    Gerius Patterson, Data and Statistical Analyst

                    Elander Phillips, Program Analyst

                    Joe Townsel, Co-Team Leader

                    Elise Stein, Director, Public Health and Human Services

                    Michala Walker, Program Analyst




OEI-04-03-00350     S TAT E S TA N D A R D S   AND   C A PA C I T Y   TO   TRACK FREQUENCY   OF   CASEWORKER VISITS WITH CHILDREN   IN   34
                    FOSTER CARE
